<html>
<title> - ANNUAL OVERSIGHT HEARING OF THE SMITHSONIAN INSTITUTION</title>
<body><pre>[Senate Hearing 116-144]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-144

        ANNUAL OVERSIGHT HEARING OF THE SMITHSONIAN INSTITUTION

=======================================================================

                                HEARING

                              BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2019

                               __________

    Printed for the use of the Committee on Rules and Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-797                     WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                
                
                COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......     2
Lonnie G. Bunch III, Secretary, Smithsonian Institution..........     3

                         Prepared Statement of:

Lonnie G. Bunch III, Secretary, Smithsonian Institution..........    16

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Lonnie G. Bunch III, Secretary, Smithsonian 
  Institution....................................................    20
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Lonnie G. Bunch III, Secretary, Smithsonian Institution........    28

 
        ANNUAL OVERSIGHT HEARING OF THE SMITHSONIAN INSTITUTION

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in Room 
301, Russell Senate Office Building, Hon. Roy Blunt, Chairman 
of the Committee, presiding.
    Present: Senators Blunt, Fischer, Capito, Udall, and Cortez 
Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will be called to order. Good morning. I want to thank my 
colleagues for attending, and before I get any further, thank 
Secretary Bunch for bringing some of their great collection for 
us to look at. Mr. Secretary, we are glad to have you and 
several people from your team here to back you up if you need 
it, but I am confident you are going to be able to be the man 
at the microphone there. This is your first official appearance 
before the Senate Rules Committee. We are grateful to have you 
with us.
    Secretary Bunch's appointment is historic in a number of 
ways. He is the first African American Secretary to lead the 
Smithsonian Institution, as well as the first museum director 
who was later appointed Secretary in at least 75 years. He is a 
historian, something that I really enjoy, and he really 
understands, so it is a great combination of things. This is 
the fourth position that Secretary Bunch has had at the 
Smithsonian, something I don't believe any of your predecessors 
could claim.
    In 1978, Secretary Bunch began his Smithsonian career at 
the National Air and Space Museum as an education specialist. 
Eleven years later, he joined the National Museum of American 
History, and he most recently served as the founding director 
of the National Museum of African American History and Culture. 
As the founding director, he led an 11-year effort in 
constructing that 400,000 square foot museum and helping raise 
the matching the public--the private funds that matched public 
funds and came up with the museum that tells an incredibly 
powerful story of that part of our history and in fact of a lot 
of our history.
    Congress established the Smithsonian in 1846 through a 
bequest by a British Scientist, James Smithson, who never 
visited the United States, but he generously left his estate to 
the United States Government to found, ``an establishment for 
the increase and diffusion of knowledge.'' That ends the quote 
from Mr. Smithson's will. Now we are almost 175 years later. 
The Smithsonian encompasses 19 museums and galleries, numerous 
research and educational facilities, the National Zoo, a 
growing collection of 155 million objects and specimens.
    Secretary Bunch's years of experience at the Smithsonian 
truly do provide a unique perspective to look at the future of 
the Smithsonian, and as the newly invested Secretary who has 
inherited the responsibility for this vast, unique, unmatched 
collection. Of course the Secretary also inherited the 
institution's challenges, the aging facilities, a deferred 
maintenance backlog totaling $1 billion, and I am sure that is 
going to be one of the topics we talk about today. In the last 
two decades, the Smithsonian doubled the square footage while 
funding remained essentially flat.
    Now, under any circumstance, that is not going to produce a 
very good result. While doubling, the institution added 
incredible capacity to see what Americans count on the 
Smithsonian for. It also added a burden that we haven't been 
willing to meet of maintenance, and I know that is one of the 
things we want to talk to the Secretary about today and one of 
the things that he sees is one of his great responsibilities. 
When the Secretary started his job, we were in the middle of a 
5-year strategic plan or at least of implementing a 5-year 
strategic plan created by his predecessor, Dr. Skorton.
    I want to discuss with the Secretary his thoughts on that 
plan, his vision on how it needs to change as we look now at 
the reality of many of the obligations and opportunities that 
are out there before us. Mr. Secretary, we are glad you are 
here. I want to call on today's Ranking Member, my good friend 
Senator Udall, for any comments that you would like to make.

 OPENING STATEMENT OF HONORABLE UDALL, A U.S. SENATOR FROM THE 
                      STATE OF NEW MEXICO

    Senator Udall. Thank you very much, Chairman Blunt, and 
thank you for those nice words and introduction. Great to be 
with you. You are a good friend and we have really enjoyed 
looking at the display there, I think. I am very pleased to be 
here this morning to discuss the Smithsonian Institution and 
its programs, and to welcome its new Secretary Lonnie Bunch 
before the committee for the first time since his appointment. 
I am also proud to have the chance to oversee the institution 
as both a member of the Rules Committee here and as the Ranking 
Member of the Senate Interior Appropriations subcommittee.
    In both roles, I have worked to make sure Congress is an 
active partner with the Smithsonian Institution and provides 
the resources it needs to meet its obligations to advance the 
civic, educational, scientific, and artistic life of this 
Nation. I can just say I am here sometimes on weekends, and my 
wife and I go to many of your museums and it is a marvelous 
display for Americans about so many important issues in 
American life and issues around the world. I am proud that the 
Senate Interior subcommittee has worked to advance an 
appropriations bill that provides more than $1 billion. This 
also includes new funding increases for security, facilities 
maintenance, and $1.7 million in new funding for the Latino 
Center.
    I look forward to producing a final bill that will give the 
institution a strong budget for fiscal year 2020. I welcome the 
chance to talk about the opportunities and the challenges of 
the--and supporting the great work that the Smithsonian is 
doing here this morning and having a discussion about that. We 
all know that the Smithsonian requires real investments to keep 
its existing museums operating, to expand its collections, to 
tell the story of all Americans, and to support the reach of 
its research and educational programs across the country.
    In particular, I expect we will hear this morning about the 
importance of Congress committing the resources needed to meet 
the institution's maintenance and capital needs. The capital 
requirements clearly need to be a priority, but we will have 
the opportunity to talk about the importance of Congress 
authorizing new museums to celebrate the history, and Latino 
community museums that would recognize and celebrate our 
Nation's diverse heritage and whose authorization legislation 
enjoys broad bipartisan support.
    In my view, Congress should be able to do both things, 
support existing infrastructure, and provide an exciting 
opportunity for the Smithsonian to expand its footprint to 
include these new museums. I look forward to hearing from the 
Secretary this morning as we talk about each of these 
priorities. Thank you for being here and I would yield back to 
the chairman.
    Chairman Blunt. Thank you, Senator. Secretary Bunch, your 
written statement will be made part of the record, but I would 
like for you to have a few minutes to talk about as much of 
that or all of that as you want to.

     OPENING STATEMENT OF LONNIE G. BUNCH III, SECRETARY, 
                    SMITHSONIAN INSTITUTION

    Mr. Bunch. Thank you very much. Chairman Blunt, Senator 
Udall, members of the committee, thank you for the opportunity 
to testify today. As you mentioned, my tenure as the 14th 
Secretary of the Smithsonian began just this summer. However, 
my relationship with the Smithsonian spans many generations it 
seems to me. I am pleased and humbled, however, to be the 
Secretary of this institution that I love so much.
    The Smithsonian appreciates the on-going support of 
Congress, the Administration, and the American people, and we 
take seriously the role we play in advancing the civic, 
educational, scientific, and artistic life of this Nation. Our 
collections are vast, representing an incredible scope and 
depth of artistic, historical, cultural, and scientific 
achievement. We are an internationally respected scientific and 
cultural institution that does cutting-edge research in many 
disciplines. Our 21 libraries collectively form one of the 
world's great repositories of knowledge.
    We have an extensive array of educational material that 
learners of all ages can access online, in classrooms, and in 
our museums. The Smithsonian buildings host millions of 
visitors every year. Our facilities provide the foundation upon 
which we build our programs, our exhibitions, our research, and 
our scholarship. We have been successful at maintaining 
building systems well beyond their intended lives, like we have 
done at the National Air and Space Museum. But the truth is, 
with a deferred maintenance backlog of nearly $1 billion, there 
is much work to be done. All of our sites, the museums, the 
research galleries, the Zoo, in addition to leased spaces, we 
must care for over 13.9 million square feet of buildings. With 
a backlog of maintenance issues, we have been reacting to 
problems instead of proactively maintaining assets. But since 
becoming Secretary, I have looked at the backlog with fresh 
eyes.
    In order to be more strategic in our approach, I have asked 
and directed the staff to begin analyzing projects in a new 
way. Rather than simply seeing the totality of our backlog, I 
want to analyze our maintenance projects building by building, 
system by system. With this approach, we are better able to 
communicate our existing priorities, develop a better sense of 
where our limited Federal dollars are best spent, and find 
opportunities to address maintenance needs as part of our 
capital revitalization projects. I believe that addressing our 
maintenance backlog is of paramount importance to the future of 
the institution.
    In their wisdom, Congress and the Administration have 
recognized the investment in long term care of our facilities 
and have supported steady increases in our maintenance budget. 
Many of our museums were built in 1960's through the 80's and 
they need revitalization. Funding preventive care will result 
in reduced overall levels of maintenance cost causing fewer 
breakdowns, save energy, and decrease unplanned closures. The 
planning and design funding requested in fiscal year 2020 will 
begin to address the future of the Smithsonian Castle and the 
Arts and Industries building. These projects represent the core 
components of a 20-year plan for the South Mall, a series of 
capital projects required after decades of deferred 
maintenance.
    In addition, our collection has grown, as you have said, to 
over 155 million objects. These objects need to be stored, 
maintained, cared for, and prepared for research and 
exhibition. To most of our visitors, the collections we have 
largely define the institution. Therefore, our collections are 
a vital national asset, and we are always striving to improve 
storage conditions, striking a balance between preserving the 
collections and providing access to them. The spaces that house 
our collections are not immune from deterioration.
    The maintenance of these areas has been deferred to the 
point of requiring capital investment. Our Collections Space 
Framework Plan outlines a strategy for improving all of our 
collections facilities. The Smithsonian's pressing 
infrastructure needs, need and demand our immediate attention. 
Despite our best efforts, much of our aging infrastructure 
continues to be below acceptable standards. We appreciate the 
support of Congress in addressing our most visible project, the 
renovation of the National Air and Space Museum. But just as 
important, we are grateful for the on-going support of the day-
to-day maintenance needs for this institution.
    Finally, let me say a few words about my plans and what I 
envision to do as Secretary of the Smithsonian. Under my 
leadership, our goal is to reach at least 1 billion people 
worldwide. I envision a virtual initiative leveraging state-of-
the-art resources and innovative partnerships, allowing 
domestic and international audiences to experience our 
scholarship, our research, our collections in new and exciting 
ways. If we are fully to serve 21st Century audiences, we need 
to be more inclusive, more accessible, and more diverse.
    A critical part of making the museums more diverse is to 
include traditionally under-represented stories, specifically 
highlighting the stories of Asian Americans, American women, 
Latino, and Asian Pacific Americans is vital to fulfilling our 
goal. Under my leadership, we will make diversity in our 
collections, in our archives, in our exhibitions, in our work 
force, a higher priority. As you know, there are bills to 
establish a Latino American and American Women's History 
museums pending before Congress. If deemed in the public 
interest to move forward with these proposals, it is important 
that any additions to the Smithsonian are considered in light 
of our existing priorities. A new museum would need funds for 
both the creation and long-term operations of the facilities, 
the care and preservation of our collections, and of course, 
the on-going success of the museum. Our work is also to 
increase knowledge is never ending.
    As we continue to make new discoveries, we plan to share 
them with future generations. Therefore, I plan to reimagine 
the Smithsonian's role in lifelong learning by making the 
institution a leader in K-12 education. Finally, what I want 
is, I want people to see the Smithsonian as a resource to help 
them better understand their lives, their universe, their 
history and our shared future. It is incumbent upon us to be a 
more universal voice, one that earns the American people's 
trust in us and leverages the great convening power to increase 
our relevance and research. We want to be the place that 
matters for all Americans.
    Thank you for giving me the opportunity to testify before 
you today. I am happy to answer any questions you may have.
    [The prepared statement of Mr. Bunch was submitted for the 
record.]
    Chairman Blunt. Well, thank you Secretary. As I said 
before, we are so delighted you are here and look forward to 
the unique set of capacity and ability and understanding you 
bring to the Smithsonian. You mentioned that Congress had 
provided money for maintenance and I think you were maybe 
generous in how you described that but looking at the 
maintenance numbers in front of me, we don't seem to increase 
that very much. We are sort of about the--from $75.5 million to 
$76 million the next year and then a pretty good increase up to 
$79 million in the year we just completed.
    We are hoping to get to $85.5 million in this budget. That 
is your request for this budget. We are not where we ought to 
be with getting that appropriations finished. But clearly that 
is not doing the job. Why don't you talk a little bit about 
your sense that going through every building, looking at the 
building systems, looking at building by building requirements, 
how you think that will help you prioritize? Am I right in 
believing that the number you are working with in deferred 
maintenance is right at $1 billion now?
    Mr. Bunch. Yes, our deferred maintenance is at $1 billion. 
I think that we have got really several important ways to 
address this. One is there is always a need to increase the 
amount of money we have for maintenance. We do right now about 
1 percent of what we--that is what we spend but we really need 
to spend at least 2 to 3 percent to be able to not only stop 
the backlog but to reduce it. But in the meantime what I 
realized is that by being more systematic, we cannot only 
understand where the needs are, we can anticipate future needs, 
because our goal is to have the knowledge and then to do 
several things.
    First of all, really utilize the fact that the key to our 
success is to use both the maintenance budget and the capital 
budgets to be able to do things like we have done with the Air 
and Space Museum. By doing the renovation of the Air and Space 
Museum, we were able to reduce and really address over $200 
million of deferred maintenance at the Air and Space Museum. We 
want to look creatively about how we bring together our capital 
projects needs with the deferred maintenance. But also, I think 
one of the keys thats clear to me is that we need to spend our 
time, focus our attention, on preventative maintenance.
    I think we want to make sure that by looking more 
systematically, we can anticipate what issues we may be able to 
defer based on actually doing preventative maintenance on that. 
My hope is that we will continue to grow our budgets. We are 
going to need your support to do that. We are going to be much 
more systematic and prioritize what we need to do. Then to 
really just make sure that we are using every opportunity we 
can to leverage the resources to address that backlog.
    Chairman Blunt. I would assume, hearing you explain that, 
that there are some places where addressing one problem 
prevents the second problem from either occurring or getting 
worse. An HVAC system that is not working can create all kinds 
of other problems in the building. Is that the kind of thing 
you are looking at?
    Mr. Bunch. Exactly. If you look at for example, as we think 
about what we need to do with the Castle and Arts and 
Industries, if we can create a central utility system that 
services all that, it solves a lot of problems, it makes it 
easier for us to maintain. We are looking at how to be more 
creative, how to really use the best technology to come up with 
solutions to the problems we will face.
    Chairman Blunt. Am I right in the Castle and the space 
there, the display, the space there--because of the HVAC 
system, you are really not able to use that space for what it 
was designed for?
    Mr. Bunch. I think what we have to do with the Arts and 
Industries building especially--that is a building that we 
spend a lot of money to stabilize. The exterior is strong. The 
roof is good, but there is millions of dollars that need to go 
into turning that into a space that is usable for the public. 
While we for example use that space for my installation, we 
really are going to have to do new systems.
    We are going to have to fit out the spaces, so it works for 
the general public. In essence part of the challenge of the 
master plan is to look at both the whole notion of the Castle 
as well as the Arts and Industries, and how we use those better 
to serve not just as office space but serve our visitors and 
our public.
    Chairman Blunt. Great. I am sure we will have time for a 
second round of questions and Senator Udall also is the ranking 
member on the authorizing committee so you can get a couple of 
double strokes in here today by talking about the authorizing 
issues and not just looking at those as appropriating issues. 
Senator Udall.
    Senator Udall. You know, and we worked together on the 
Appropriations Committee. He is a cardinal. I am just a 
cardinal in waiting. But Chairman Blunt, with your permission, 
I would allow--Senator Cortez Masto has another hearing so I am 
going to allow her to proceed with her questioning at this 
point.
    Senator Cortez Masto. Thank you. Thank you, Chairman and 
Ranking Member. I appreciate the opportunity. Obviously, I have 
similar concerns about the maintenance backlog. We want to do 
whatever we can to assist and give you the resources you need 
to address that. I do want to talk and ask a question about, 
you talked about having 155 million objects? Is it a million?
    Mr. Bunch. 155 million.
    Senator Cortez Masto. Yes. You talked a little bit about 
how the storage, and how it is necessary to have a plan for 
that, and you mentioned a collection space framework plan. Can 
you talk a little bit more about that? Are there challenges 
that you are facing there, and what should we be aware of?
    Mr. Bunch. As somebody who was a curator, as a director of 
a museum, I realized that the only thing that is permanent in 
the Smithsonian are its collections. Everything else is 
fleeting. It is crucially important for us to preserve those 
collections but also realize that we are going to have to 
continue to build those collections as new stories are told, 
new research is done.
    So what we have looked at is creating this collections 
framework document in 2015 was so important because it was the 
first time that it gave us an accurate sense of exactly what 
the conditions were in all those spaces, all the buildings, 
what kind of equipment we had, and that has now given us the 
strategic opportunity to really move creatively to address this 
issue. Clearly it is a long-term issue. It is going to be 
decades to do this. But because of the support we have 
received, we have been able to do some things I think are 
really important. We have been able to look at the sites that 
were the worst or that had great deterioration, that have 
decontaminations in the Paul Garber Center.
    We have been able to decontaminate all of those artifacts, 
look at new ways to move them. With your support, we have been 
able to build new spaces that can hold artifacts both at Dulles 
and at the Suitland campus. What that allows us to do is it 
allows us to address the most serious problems, but also allows 
us to have the kind of swing space that we need, as for 
example, when we now move the Air and Space Museum, we have got 
to be able to move artifacts away. Ultimately, that will give 
us the kind of storage that we can use down the road.
    Senator Cortez Masto. Thank you. Then you talked a little 
bit about new opportunities here and I want to take advantage 
of you being the Founding Director of the Smithsonian's 
National Museum of African American History and Culture because 
I am a big supporter of the National Museum of the American 
Latino. I guess my question to you is, what opportunities do 
you foresee in establishing the National Museum of the American 
Latinos that we can start working on now to bring this to 
fruition?
    Mr. Bunch. If there is one thing, I know how to do is how 
to build a national museum. The challenge for us is to 
recognize that we are going to have to realize that we are 
going to have to build the money, to build the institution, to 
maintain it, to build the collections but also to make sure 
that we are bringing resources into the Smithsonian so that we 
can handle our deferred maintenance. I think that there are 
many issues to think about.
    Issues of if you are going to build a Latino Museum, how 
does the money get allocated? When we built the African 
American Museum, there was no mechanism to be sure when Federal 
money would come and that made it hard to strategize and plan. 
I think it is also crucially important to realize that if we 
are going to build new museums, it also has a major impact on 
the central services of the Smithsonian: security, maintenance.
    We have got to realize that there is going to be resources 
put in those areas if we are going to be able to do a museum 
that is worthy of the Smithsonian. With the right resources and 
the right commitment, clearly, we can do the museums that will 
make people proud.
    Senator Cortez Masto. Thank you. Thank you Secretary Bunch 
and to the staff of the Smithsonian. Thank you for all of the 
good work. Really appreciate it.
    Mr. Bunch. Thank you.
    Chairman Blunt. Mr. Secretary, on that topic, are you 
suggesting if we were going to do another private, public 
partnership that we can do a better job as you are raising that 
money knowing what points you needed to make when public money 
would then follow?
    Mr. Bunch. Exactly. I think that even if there was a 
mechanism that said it was a one-to-one match or that you knew 
that at certain points along the construction process that you 
could count on a certain amount of Federal money--what we had 
to do was every year obviously come back and some years we did 
well on capital some years we didn't, and that made it 
difficult to actually move the museum along as quickly as I 
would like. Candidly it took us 11 years. That is moving pretty 
quick in the Federal system, but in some ways, I think that 
there are things I have learned that we can shortcut that a 
little bit.
    Chairman Blunt. Thank you. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. Thank you, 
Secretary Bunch, for not just your service, for being here 
today, and your long history in such an, I think, distinguished 
field. Kind of along the lines as Senator Cortez Masto, not on 
the Latino Museum, but we are at the 100th Anniversary of the 
ratification of the 19th Amendment, giving the women the right 
to vote. I wanted to highlight efforts that we have made here, 
and you mentioned this in your statement on the Smithsonian 
American Women's History Museum Act, which I am a co-sponsor.
    Obviously, you have talked a little bit about building a 
museum from the ground up. I wonder if you have--and you 
mentioned the perspectives in terms of the financing. I don't 
know if you have any perspectives here on if this act were to 
pass how that would come to fruition.
    Mr. Bunch. I think there are a couple of things to think 
about. First of all, it is so important that if we do a museum 
on the history of American women, it is important to recognize 
that while it is both a story of individual women, it really a 
story that is a lens that helps us understand what it means to 
be an American. We have to frame it in a broader way so that it 
is a story that has shaped everyone. I think that what I am 
very proud of is the fact that the Smithsonian has this 
American women's history initiative, which is allowing us to do 
important work that crosses throughout the Smithsonian.
    It allows us to look at what are issues that could be 
explored in a museum, how do you build collections, what kind 
of staff do you need. In a way, the American Women's History 
Initiative is a commitment that the Smithsonian makes 
regardless of what happens in the future that we will make sure 
those stories are told in a way that is meaningful and 
accessible.
    Senator Capito. Thank you. I am very much interested in 
that. The other thing coming from a rural state that is not too 
far away, West Virginia, the Smithsonian's reach is broad into 
all 50 states and probably globally as well. Could you talk a 
little bit about what efforts the Smithsonian is making to make 
sure that you don't have to come to Washington, DC, although 
that would be great, to enjoy the gifts that the Smithsonian 
can give?
    Mr. Bunch. I think you framed it in the exact right way. 
The wonders of the Smithsonian deserve to be something that 
touches every school and touches every American home. In order 
to do that, we have got to build on the things we do 
traditionally even better. We have to think about how do you 
create a virtual Smithsonian? How do you take the collections, 
the expertise of the Smithsonian so that people aren't coming 
just to see the virtual Museum of American History or the 
virtual Air and Space Museum, but the wonders of the 
Smithsonian in ways that help them understand history, art, 
science, but helps them understand broader issues like identity 
and globalization and technology.
    So what I am committed to doing is really looking at how do 
we create that Smithsonian that is virtual. How do we bring in 
partners from around the country so that therefore we can have 
the reach because I think it is important that the millions of 
people globally who want to come to the Smithsonian should have 
that access. But the other side of that is then to do even a 
better job with our affiliates program, do a better job with 
our travel and exhibition service to make sure we reach out in 
very direct ways to communities small and large.
    Senator Capito. Let me ask you this, we had Carla Hayden, 
the Librarian of Congress, here last week I believe, and a lot 
of what the direction that they are moving is to digitization 
of their collection, all collection. You are talking about a 
virtual sort of museum. Are you working with the Library of 
Congress? Because there has got to be a lot of intersection 
there of all kinds of not just history, but documentation is 
and other things.
    Mr. Bunch. We have started to work more effectively with 
the Library of Congress. I have partnered with them when I was 
Director of the museum, and I think tomorrow I think the 
Librarian of Congress and the Archivist of the United States 
and myself are sitting down to begin to look at what are the 
things we can do in common.
    Senator Capito. Right, because the National Archives does 
have an exhibit on the ratification of the 19th Amendment. That 
is very good. I know they put a lot of resources into that. I 
am not going to ask you the resource question because I know 
that is the big question. You can do anything if you have 
enough time, money, and resources. I appreciate what you are 
doing with the resources you have and thanks so much for being 
here today.
    Chairman Blunt. Senator Udall.
    Senator Udall. Thank you, Chairman Blunt, for the 
recognition. Welcome again. I am going to focus and followup a 
little bit on Senator Cortez Masto's question on the Latino 
Museum. You know, Latinos have played an important role in the 
history of our Nation for over 500 years. In my home State of 
New Mexico that history and ongoing influence is celebrated. It 
is time for our national institutions to also recognize and 
lift up the important contributions made by Latinos and Latinas 
in our country, our heritage, our history, our cultural 
tapestry. Self-identified Hispanics and Latinos currently make 
up nearly one-fifth of our population and represent the largest 
ethnic group in the United States.
    That is why I have co-sponsored Senator Menendez's bill to 
establish the Smithsonian American Latino Museum. I also 
supported an amendment during floor consideration of the 
Interior bill which would provide an additional $1.5 million 
for the Latino Center and expand programming for existing 
museums.
    If the final bill includes that increase, what do you plan 
to do with the additional funding, and more broadly, what steps 
are you taking to ensure that the Smithsonian is including the 
Latino experience in all of its museums?
    Mr. Bunch. One of the things I am proudest of is when the 
fact that during my entire career at the Smithsonian we have 
created the Latino Center. What that Latino Center has done is 
transformed the Smithsonian. As you know, the real power in the 
Smithsonian is not museum directors, or secretaries, or 
curators, it is people who do the research and bring in the 
collections. What the Latino Center has allowed us to do is 
embed curators who have that expertise in the museum of 
American History, or the African American Museum, or the Art 
Museums.
    So one, we want to build on that, and my sense is that any 
support we get will allow us to continue to hire people that 
will help the center do its work. But also, as you know, one of 
the things that is really important for us is that the Latino 
Center is now following the pattern that we did with the 
African American Museum, which was to create a gallery in the 
Museum of American History that would allow you to do 
exhibitions, allow you to hire staff, allow you to build 
collections.
    So I think any of the resources we have will also go into 
that because I think it is really important for us to be able 
to demonstrate in very concrete ways, here is a space where 
that important story is always told.
    Senator Udall. Thank you, Mr. Bunch. Obviously, I hope that 
the work that the Latino Center is doing will now lay the 
groundwork for the passage of the legislation to create a new 
Latino Museum. I think it is critical that Congress take action 
not just to support your existing facilities needs but also to 
build this new museum.
    When you and I last met, we talked about the importance of 
you meeting with the Museum's advocates, groups like The 
National Association of Latino Arts and Culture, the National 
Council of La Raza, and the friends group working in support of 
the museum creation and many others. Have you had the 
opportunity to meet with these groups and what are you hearing 
from them?
    Mr. Bunch. I have had opportunities to talk to individuals 
not collective groups. I am meeting with the congressional 
Hispanic Caucus very soon. What I am hearing is one, a 
commitment for people to realize and recognize that the 
Smithsonian cares about this subject and wants to do even more, 
and there is a great deal of interest in having me come talk to 
people about how do we build the African American Museum. What 
are the steps? What are the challenges?
    So what I am hearing is great excitement. I think that what 
I want to make sure is that as we share that excitement, we 
also make sure that we are doing very concrete things that 
people can see today that lay a foundation for the future.
    Senator Udall. The Interior subcommittee bill funds the 
Women's History Initiative at $3.7 million. What is the 
Smithsonian doing with its current resources to celebrate and 
deepen the public's understanding of the contributions of 
American women? How would the additional $1.7 million be used 
to expand that and prepare for a permanent Museum?
    Mr. Bunch. Again, much like the Latino Center, being able 
to explore this history of American women really allows us to 
build collections which are key to building a new Museum. It 
also allows us to do exhibitions that cross boundaries.
    So I am very excited about--we are about to do an 
exhibition at the Museum of American History on girlhood, which 
will really allow people to understand the lens through sort of 
adolescence and women. It is really important for us to say 
that I want to be sure that curators throughout the Smithsonian 
have the guidance and the resources to make sure that issues of 
gender are explored in every of our museums.
    Senator Udall. Thank you, Mr. Secretary.
    Chairman Blunt. Thank you, Senator Udall. Secretary, I 
think there have been 12 bills filed in this Congress for 
looking at the potential for different museums or emphasis in 
museums. Today you have mentioned an Asian Americans, Asian 
Pacific Americans, Latino Americans, and a Women's Museum, all 
has been part of this discussion. Assuming those would happen, 
I think it is unreasonable to think that all of them would 
happen or that any of them would be in place within a decade--
maybe we learned enough from the 11-year effort that if we got 
started, we would be done 10 years from now.
    That is clearly too long to wait to tell all of those 
stories as effectively as we can. Are you giving consideration 
to more prominence of those stories and the existing 
facilities, which of course would mean telling less of other 
stories in the existing. What would our plan be on all of those 
areas for the coming decade no matter what we decide to do in 
terms of a facility for one or more of those other important 
components of who we are?
    Mr. Bunch. My career has been about expanding the cannon, 
making sure that we understand the rich diversity of America 
not to explore just a particular community but to help us 
understand who we are as Americans. I am bringing that 
commitment to the rest of the Smithsonian. It is my expectation 
that we will build on the work of the Asian American Pacific 
Center that is really doing important work helping us find new 
collections and new stories.
    I am thinking about how, as we create the virtual 
Smithsonian, these issues should be at the heart so people will 
be able to tap that virtual presence and understand Latino 
issues, African-American issues, Asian American issues, issues 
of gender. We are not waiting on any museum to be built. We are 
committed to making sure that the Smithsonian represents 
America and gives all its visitors a better understanding of 
who we are by looking at us through different lenses.
    Chairman Blunt. You know, the Park Services, as they now 
entered the second century the Park Service and we are getting 
very close to the beginning of the third century of the 
Smithsonian. They are looking more at public-private efforts. 
We got to watch this closely at the arch, which after 60 years 
we needed a number of things done. It became a huge local and 
individual donor effort, involves some naming rights that had 
not been part of the Park Service in the past, but it really 
produced a result that we wouldn't have been able to produce 
otherwise.
    Are you thinking about that potential? I know there are 
parts of the Smithsonian already that have had a sponsor when 
they were built or an exhibit that has a sponsor. Is there any 
capacity there for us to do some fundraising that would allow 
maintenance in return for recognition in parts of some of these 
facilities?
    Mr. Bunch. There is always a great opportunity to build and 
expand on the public-private partnership. The truth of the 
matter is, it is very difficult for us to find philanthropic 
support for some of the behind-the-scenes, but I think the 
notion that the Smithsonian has done very well in its 
fundraising over the last decade has really been able to find 
new partners who have brought resources to allow us to tell 
different stories and more important stories.
    So my goal is to continue to build that public-private 
partnership to do the fundraising. But also where there are 
opportunities. For example, we are looking at what can be the 
philanthropic support for fixing the Castle and the Arts and 
Industries. They are such historic buildings. Maybe there is 
more philanthropic support we can get for that. We are looking 
in those directions to find funds wherever we can.
    Chairman Blunt. Well, I was a University President for 4 
years once and nobody wants to give money for the electrical 
system. On the other hand, if you get money for the electrical 
system and part of the understanding is one of the things you 
are going to do is you are going to rewire the theater which 
currently has no patron, I just think that is something we 
ought to be thinking about.
    When you do think about that, the public-private 
partnership can't be we just have now with this private partner 
a new source of revenue, but there does have to be some 
collaborative discussion as to what that partner would hope to 
have happen and our commitment to be part of it. Just something 
to think about and I know, I am confident, based on your past 
experience you are giving that some thought.
    I am telling you, I think you would find support for that 
and encouragement of that in the Congress if you go in that 
direction. Senator Capito. Senator Udall.
    Senator Udall. Thank you for the recognition, Mr. Chairman. 
Secretary Bunch as Vice Chairman of the Senate committee on 
Indian Affairs, I strongly support the tribes' inherent right 
to exercise self-government which includes their ability to 
protect and maintain tribal cultural patrimony such as 
ceremonial and religious event recordings. Many museums and 
universities, including the Smithsonian, currently hold these 
recordings in their collections.
    Under current law, it is possible that those culturally 
sensitive recordings could be released to the public domain 
which is a major concern for tribes across the country. Last 
week, I brought this issue up with the Librarian of Congress in 
a hearing before this committee and was told that the Library 
is working with the Smithsonian on tribal engagement. Can I get 
your commitment to working with the Library of Congress and to 
engaging with tribes on this important issue?
    Mr. Bunch. Not only are we willing to work with the Library 
of Congress, but we have already done a lot of work in this 
particular area. One of the things we have done at the Center 
for Folklife and Cultural Heritage is created what we call a 
shared stewardship collections policy, which allows us to look 
at the native holdings that we have to make sure that native 
communities shape our collections policies, shape our access.
    We actually communicate and consult with those communities 
to make sure that we are not letting sacred music or issues 
that shouldn't be in the broad public. We are doing the best we 
can to ensure that we are honoring the intangible heritage of 
the Native communities. I think that this is one of the most 
important things we are doing because we will now take that 
shared stewardship notion and really, I am going to ask the 
rest of the Smithsonian to look at it, so we have a policy that 
shapes the entire Smithsonian.
    Senator Udall. Right. Thank you very much. That covers my--
he was looking ahead, and he covered my other question there 
with that answer. I just would say in summary that I am really 
a stand-in here for the Ranking Member Senator Klobuchar and 
she is very, very proud, I think, of this collection and the 
idea that the Prince Guitar and the items from Minnesota are 
displayed here today. We will--and I know that the chairman is 
also very proud of what is happening with Missouri. Thank you 
for bringing those today and really appreciate it.
    Chairman Blunt. I think I had my mic on as we were talking 
about the original Bundt pan also.
    Senator Cortez Masto. I said, I think I have that same pan.
    [Laughter.]
    Chairman Blunt. We decided everybody has a Bundt pan 
whether used or not. I have a couple of quick questions. One 
is, the Senate Interior Appropriations bill that Senator Udall 
is very familiar with included a provision that would permit 
you to move forward with your proposal to purchase a building 
to serve as a consolidated administrative headquarters.
    Does that language do what you need to do to get that done? 
As I recall, we have talked about that and there is a 
foundation involvement too which might circle back to my 
public-private partnership efforts. How will that work, and do 
you feel like the language that you see is adequate for you to 
do what you would like to do there?
    Mr. Bunch. I think the language is adequate. I will sort of 
ask my staff to go back and make sure that there aren't any 
issues that I don't know about. But I think that it is crucial 
for us to be able to think in an innovative way, maybe in an 
unorthodox way, to solve some of the problems that we have.
    By consolidating all these leases we have, by being able to 
use the Federal rent support to basically help us pay down that 
debt, it will allow us ultimately to save an awful lot of money 
for the Federal Government as we move forward. We are very 
excited about doing that and I really appreciate the language 
that you put in to help us do that.
    Chairman Blunt. Alright, the last thing I will ask would be 
in terms of the plan that Secretary Skorton had worked on and 
you were a contributor that plan. Do you feel like that plan is 
headed in the right direction? Are there any modifications now 
that you have had time to look at it that you think you may 
want to make?
    Mr. Bunch. What I think is so powerful about that plan is 
the notion of reach, relevance, and impact. I am taking those 
words and really making sure they are at the heart of what I 
want to do. By focusing on the educational piece, by looking at 
the virtual Smithsonian, but also by realizing that we can't be 
the institution for the 21st Century we want if we don't fix 
some of the problems that we have with our processes, HR, and 
contracting alike. For me, the framework of the strategic plan 
is something that I will build on and I am just tweaking it to 
focus on education and the virtual Smithsonian.
    Chairman Blunt. Great. Any other comments from the Senators 
here? Well, Secretary Bunch really thank you for joining us 
this morning. We look forward to your leadership at the 
Smithsonian. You come with a unique background and unique gifts 
for this job and I hope we can continue to be in communication 
about that. The record will be open for 1 week from today.
    [The information referred to was submitted for the record.]
    Chairman Blunt. The committee is adjourned.
    [Whereupon, at 10:45 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre></body></html>
